<html>
<title> - VOTING RIGHTS AND ELECTION ADMINISTRATION IN TEXAS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           VOTING RIGHTS AND ELECTION ADMINISTRATION IN TEXAS

=======================================================================

                          A LISTENING SESSION

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2019

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
           https://govinfo.gov/committee/house-administration
           
           
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-144 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------           
          
           
                            C O N T E N T S

                              ----------                              
                                                                   Page
WELCOME:
U.S. Representative Fudge........................................     1
U.S. Representative Thompson.....................................     2
U.S. Representative Johnson......................................     2
U.S. Representative Lujan........................................     3
U.S. Representative Vela.........................................     4
U.S. Representative Jackson Lee..................................     4
U.S. Representative Cuellar......................................     5
U.S. Representative Green........................................     6

PANEL TESTIMONY:
Rolando Rios.....................................................     7
George Korbel....................................................     9
Matthew McCarthy.................................................    11
Chad Dunn........................................................    12

QUESTIONS AND ANSWERS OF PANEL:
U.S. Representative Fudge........................................    14
U.S. Representative Thompson.....................................    15
U.S. Representative Johnson......................................    16
U.S. Representative Cuellar......................................    17
U.S. Representative Lujan........................................    19
U.S. Representative Vela.........................................    20
U.S. Representative Jackson Lee..................................    22
U.S. Representative Green........................................    23

PANEL TESTIMONY:
Mimi Marziani....................................................    26

QUESTIONS AND ANSWERS OF PANEL:
U.S. Representative Thompson.....................................    28
U.S. Representative Johnson......................................    30
U.S. Representative Lujan........................................    30
U.S. Representative Veasey.......................................    31
U.S. Representative Jackson Lee..................................    33
U.S. Representative Green........................................    35

 
           VOTING RIGHTS AND ELECTION ADMINISTRATION IN TEXAS

                              ----------                              


                        MONDAY, FEBRUARY 4, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 9:00 a.m., at 
Cameron County Courthouse Commissioners Court, Hon. Marcia L. 
Fudge presiding.
    Present: Chairwoman Fudge.
    Also Present: Representatives Lujan, Thompson, Vela, Eddie 
Bernice Johnson, Jackson Lee, Cuellar, and Veasey.
    Staff Present: Khalil Abboud, Deputy Staff Director; David 
Tucker, Senior Counsel and Parliamentarian; Eddie Flaherty, 
Chief Clerk; Peter Whippy, Communications Director; Veleter 
Mazyck, Chief of Staff to Ms. Fudge; Elizabeth Hira, Elections 
Counsel; Courtney Parella, Minority Communications Director; 
Jesse Roberts, Minority Counsel; and Cole Felder, Minority 
General Counsel.
    Chairwoman Fudge. Good morning. This listening session of 
the Committee on House Administration of the U.S. House of 
Representatives will come to order.
    My name is Marcia Fudge, and I'm the Subcommittee Chair, 
and I want to thank all of you and all of my colleagues for 
joining us today.
    I especially want to thank Congressman Vela for welcoming 
us to this district of his in a very, very warm way. We thank 
you, sir.
    I want to thank the staff, the Chairperson of this 
Committee, Representative Zoe Lofgren, and the Speaker of the 
House for having the insight to allow us to go across this 
country to determine what is really going on as it relates to 
voting rights.
    I also want to thank our distinguished group of experts for 
being here today, and for the statements that you will provide. 
We are excited to hear from you. It is critical to have your 
input, and we are excited to hear it.
    We are here to talk about the Voting Rights Act. More 
specifically, we are here to talk about why we still need its 
protections and why it is so critical that Congress pass a new 
coverage formula so that we can make Section 5 work again to 
ensure all eligible voters have access to the ballot.
    When the Supreme Court ruled in Shelby County v. Holder, 
they struck down more than just a formula. They struck down the 
idea that all eligible Americans should have the right to vote. 
They allowed states to implement restrictive laws that denied 
the most vulnerable among us. They took away their voice. They 
enabled bad actors to deny Americans their fundamental rights, 
and they allowed elected officials to pick their voters.
    The record we compile today and in the coming months will 
prove beyond a shadow of a doubt that we still need the Voting 
Rights Act. It will prove that while we've come so far, we have 
so far to go.
    Someone asked me why Texas and why Brownsville. I will say 
it in the words of Dr. King. We are here because injustice is 
here. It is our first step in making right the wrongs that have 
disenfranchised too many for far too long.
    I look forward to the valuable insight that will be 
provided today and working with all the stakeholders that have 
done so much good work around this issue.
    I would now ask that our Members have a few words of 
welcome. I would start with Chairman Bennie Thompson of the 
Homeland Security Committee of the U.S. House of 
Representatives.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Let me welcome my colleagues who are on the dais with me as 
well as the panel of witnesses today. I look forward to your 
testimony.
    And you wonder what would a Homeland Security guy have 
anything to do with elections. As some of you might know, our 
system of elections has been declared critical infrastructure, 
and so it's in our best interest to protect that 
infrastructure, which is also meant that we have to protect how 
we elect our officials. But in any democracy, you have to be 
fair and impartial. That's the real hallmark of any democracy. 
So I look forward to the testimony.
    My personal testimony is a long time ago, Bennie Thompson 
ran for office, and the only reason he was able to win was 
because of the Voting Rights Act protections. We couldn't even 
register people to vote in my little community unless they were 
federally registered. The local registrar wouldn't even 
register them. So there are a lot of things that I have a real 
commitment to, and--and this is one.
    So the other thing is we produce the report--task force 
report on our Committee talking about elections in this 
country. It's not just the person down the street. The 
Russians, the Chinese, North Koreans, other people would want 
to compromise our systems also for election. So my mission is 
election security.
    So I'm happy to be here, Madam Chairwoman, and I look 
forward to the testimony and the questions to follow.
    Chairwoman Fudge. Thank you very, very much.
    We now move to Chairwoman Eddie Bernice Johnson of the 
Science and Technology Committee, and a Texan.
    Ms. Eddie Bernice Johnson. Thank you very much, Madam 
Chairwoman.
    And let me acknowledge our host, Mr. Vela, and my other 
colleagues who are here, and--and to the distinguished 
panelists, as well as the audience.
    I'm a native Texan, and that says it all in terms of voting 
rights. I'm delighted that this Committee has chosen this as 
the first stop. I think it was the correct stop to make.
    We have just been accused of allowing noncitizens in the 
thousands to vote, which I think will be proven not to be 
accurate. But we know that we must watch voters and voting of 
minorities for protection very closely in Texas and in the 
United States. But Texas is one of those states that's very 
important to the fairness and justice of all voters, especially 
minorities.
    I'm delighted that the leadership of this Congress has made 
this a priority, and I look forward to seeing the results of 
all the hearings throughout the nation.
    I don't see too many faces that are foreign, and I think 
it's because those people who are interested in voting rights 
will always show up when we need them. So thanks to all of you.
    We are especially pleased to be the guests of Congressman 
Vela, who is well known in this area with his mother having 
been mayor of the city and his father having been a federal 
judge. He has to stand up straight because he's from good 
blood. Thank you very much.
    Chairwoman Fudge. Thank you.
    Now we will hear from the Assistant Speaker and my 
classmate, Ben Ray Lujan.
    Mr. Lujan. I thank the Chairwoman. I want to recognize her 
leadership. I'm so grateful for the work that she's doing 
across America on behalf of the American people.
    I too want to join our two chairs, Mr. Thompson and Ms. 
Eddie Bernice Johnson, in thanking our host today, Congressman 
Filemon Vela, for inviting us to his congressional district for 
this important conversation.
    We have a lot of work to do here given the damage that has 
been done over the last few years and continues today free from 
constraints by the Supreme Court's conservative majority. In 
cases like Shelby County and Citizens United, bad actors have 
seized every opportunity to rig the rules of our democracy in 
their favor.
    We've seen the diminishing and suppressing of voters. In 
many states across America in recent years, we saw polling 
places get closed, the shortening of voting hours. We saw the 
implementation of burdensome ID laws. And then those same very 
actors made it more difficult to obtain the required IDs. They 
purged registered voters from the polls, made registration more 
onerous, and gerrymandered districts for political gain across 
America.
    So we're here because we need answers to these injustices 
with reforms that restore and protect the voice of the American 
people and our democracy. And I hope that our colleagues on the 
other side of the aisle will come to the table and help us 
restore power to the American people.
    Here's something to remember. Presidents Richard Nixon, 
Gerald Ford, Ronald Reagan, George H.W. Bush, and George W. 
Bush all renewed and strengthened the Voting Rights Act. The 
late Republican Senator John McCain joined with progressive 
Senator Russ Feingold to pass the Bipartisan Campaign Reform 
Act, the most significant update of our campaign finance law 
since Watergate.
    In response to the lobbying scandals of the mid 2000s, 411 
bipartisan members of the House and 83 bipartisan Senators 
passed an ethics reform bill that President George W. Bush 
signed into law. But make no mistake. If our Republican-led 
Senate and the President choose not to help fix our democracy, 
we'll look to the American people. I thank you very much for 
your time today and very much look forward to the testimony.
    Chairwoman Fudge. Thank you.
    We will now hear from our host Representative, Filemon 
Vela.
    Mr. Vela. Thank you, Chairwoman Fudge, and I thank all of 
my colleagues for joining us here in South Texas today.
    I think this is probably one of the first--it's not 
officially a congressional hearing because some of our 
committees have not yet formed, but our first listening session 
in this new session of Congress. And I think the idea that our 
leader in this effort, Chairwoman Fudge, would be willing to 
host this in my home county is--it's a great honor to have you 
and everybody else here.
    You know, I was born two years before the passage of the 
Voting Rights Act, which occurred in l965. And I'm in a 
building that I practically grew up in, because my father had a 
law practice directly across the street. As a state trial 
judge, he was in these buildings for about five years.
    But like many good politicians, his political career began 
in defeat. And that was back in 1962 when he had to confront 
the poll tax. And so I remember over the years how my father 
would--you know, he, of course, blamed his defeat on the poll 
tax. It's difficult to tell whether that was the reason or not. 
But those of us who came of age after the Voting Rights Act, 
were raised in a different world.
    And so the idea that we're at a place in this country where 
there are people that think we should make it more difficult to 
vote when we should be doing the exact opposite is just 
striking, and it's unfortunate.
    And I--with our new leadership in the House, with Speaker 
Pelosi in charge, I am hoping that we can move forward and do 
the right thing for the citizens of this country who face 
obstacles in exercising the right to vote and that we can break 
that wide open.
    And thanks to all of our witnesses for being here as well 
today. And finally, thanks to our hosts, the Cameron County 
Commissioners Court, Judge Eddie Trevino, and our county 
administrator David Garcia for allowing us to use this 
beautiful space, and to our former county judge Gilberto 
Hinojosa for being here as well.
    Chairwoman Fudge. Thank you.
    Another Texan, my friend from Houston, Congresswoman Sheila 
Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairwoman for her 
astuteness of making this the first place to hold this very 
crucial hearing and listening session.
    I want to acknowledge the Chairperson of the House 
Administration Committee Zoe Lofgren, and Speaker Nancy Pelosi 
for recognizing the crucialness of voting for--there will be 
many hearings thereafter. And Congressman Vela, thank you so 
very much for being a host.
    I'm delighted to be here with my colleagues Congressman 
Green and Chairwoman Johnson, Chairman Thompson, and the 
Assistant Speaker, as well as my colleague Mr. Cuellar.
    I can say to you that the crucialness of this Committee 
cannot be spoken enough of. As a senior member of the Judiciary 
Committee, a senior member, the work that we will do will be in 
collaboration with the important work of this great Committee.
    I cannot speak without acknowledging the warriors that you 
have selected, the experts Rolando Rios and George Korbel, as 
well as Mr. Bledsoe, who was not able to be here, Mr. Dunn, and 
certainly our representative from the ACLU who is present. All 
of these gentlemen I have had the opportunity to work with. And 
Ms. Marziani, we thank you as well for the leadership that will 
be given to this hearing.
    Very briefly, we are at the epicenter of voting 
discrimination here in the State of Texas. And just two points, 
many more to be offered, but certainly, those of us in the 
United States Congress are the beneficiaries of the Voting 
Rights Act, particularly Section 5 preclearance. We're in 
voting rights districts. Many of us are in voting rights 
districts.
    The district that I am in now is a court-ordered district, 
done so out of a long-standing discrimination that we had to 
fight from the very time I came to the United States Congress. 
I've never been totally in a district drawn by the state 
legislature. I only survived, this district only came about, 
Barbara Jordan was only elected because of the 1965 Voting 
Rights Act.
    So two points: Isn't it interesting that the Department of 
Justice has now indicated that the State of Texas should be 
withdrawn from any Section 5 preclearance; and, number two, 
that the Mexican-American Legal Defense Fund has to file suit 
because the State of Texas decided this discriminatory voter ID 
law which has seen the closing of polling places, but now that 
they are holding up individuals whose driver's license may have 
indicated that they were not a citizen, but, in fact, they are 
a citizen. You get a driver's license in this state no matter 
who you are, but you then process into citizenship.
    If we want to believe in one person, one vote, government 
of and by and for the people, then we must guard, protect, 
hold, and fight for voting rights, including Section 5.
    So thank you so very much. I close by acknowledging our 
Chairman, a very active gentleman, Mr. Hinojosa. We're very 
grateful for your leadership, and Ms. Velt, who is here. We're 
very grateful for her service.
    So thank you very much, Madam Chairwoman, and I yield back.
    Chairwoman Fudge. Thank you very much.
    The Texan at the end of the dais, my friend Henry Cuellar. 
Sir.
    Mr. Cuellar. Thank you, Madam Chairwoman. Thank you so much 
for having this hearing--this field hearing here in South 
Texas. And I certainly want to say welcome to you and the other 
members who are present here today that have come to visit 
Texas and how special South Texas and the border is.
    I certainly want to thank my good friend Filemon Vela for 
being our host. Mr. Vela has been an outstanding Member of 
Congress. As you know, he's part of the team that--if you look 
at South Texas, you have Congressman Vela, Congressman 
Gonzalez, and myself, three of us in South Texas, and we work 
together as a team. So thank you, Mr. Vela, for hosting this 
and for the great job that you're doing in DC.
    And certainly, what I want to say is the--start off with 
the--with the witnesses. I know some of these witnesses. We 
worked for many years. In fact, a couple of them are my 
redistricting attorneys, and if there's anybody that knows the 
redistricting law, it's certainly Rolando Rios, who's been 
working on it, I guess, since the '80s or so. And then you've 
got George Korbel, my other friend there, who's been working on 
this, I guess, since 1971, if I'm correct. So if--if there's 
anybody that knows redistricting or--or--or the Voting Rights 
Act, it's those two gentlemen.
    But also, we have our experts from the ACLU. Thank you so 
much for being here. Mr. Dunn, again, you worked for a good 
friend of mine, Rodney Ellis--Senator Ellis and Donna Dukes and 
other friends that I worked with in the State legislature, so I 
certainly want to thank you. Gary Bledsoe is not here, but he's 
another good friend that knows it very well. And I certainly 
want to thank the witnesses.
    Before I go into the two--to the judge and the former 
county judge, let me just say the attorneys that are here were 
the ones who were involved in another issue that was very 
important, the citizenship question on the census. And they won 
this first step. And I hope we can win it, because if there's 
anything that's going to cost the State of Texas not only 
Members of Congress or other areas, it's going to be the 
billions of dollars that the State of Texas and other states 
are going to lose.
    And this is why it should be a no-brainer that we shouldn't 
be doing that, but unfortunately, sometimes people will put 
politics in front of what's right for the community. So I 
certainly want to say congratulations for winning this 
extremely important case itself also.
    Certainly, the county judge, thank you so much, Judge 
Trevino, for--for hosting us here, and send my best to the 
County commissioners. And thank you for--for everything you do.
    Former County Judge Hinojosa, we've known each other for a 
long time. And thank you for what you do also for the State of 
Texas. And--and certainly, they know--you know, these are the 
folks that know South Texas very well.
    So again, I want to hear from the witnesses. All I want to 
say, Madam Chairwoman, thank you so much for hosting us here 
and to your staff that's been working very hard to make sure 
that we have this field hearing here in the State of Texas.
    And, it's important to come down here to the border, 
because, you know, Chairwoman, yesterday, I hosted as part of 
the conferees three other folks. And, you know, they keep 
talking about the wall, the wall, the wall, which we don't 
want. This is the type of hearing we should have at the border, 
so thank you so much.
    Chairwoman Fudge. Thank you very much.
    And last, and certainly not least, my other friend from 
Texas sitting at the end of the dais, Representative Al Green.
    Mr. Green. Thank you, Madam Chairwoman. I thank you for 
your leadership. I thank you for your courage. And most 
importantly, I thank you for just being a good decent person, 
someone who has the ability to see wrong and to challenge it 
consistently. So I thank you.
    I thank all of my honorable colleagues. And I'm honored to 
be here for this historic occasion. Proud to be a part of it.
    I'm here because Dr. King was imminently correct. ``The arc 
of the moral universe is long, but it bends towards justice,'' 
but it doesn't do it on its own volition. It does it because 
people of good will will take up the cause of justice.
    I'm here with my colleagues to help bend the arc of the 
moral universe towards justice. I believe that preclearance 
paved the way for political inclusion. Without preclearance, 
the face of Congress would be decidedly different. We have 
benefitted greatly. And it's a shame that we find ourselves now 
having to refight the fights that we won, but it's our duty to 
do so.
    Briefly this: No more than 24 hours after the decision was 
made in Shelby, Texas immediately announced its intention to 
implement a strict voter ID law. Mississippi and Alabama 
followed quickly. And then, of course, two months later, we had 
North Carolina.
    We have a duty, a responsibility, and an obligation to the 
people who made it possible for us to have these positions to 
take up this cause of justice. And I promise you, I'm honored 
to be here, but I'm honored to also be a part of the fight.
    I yield back.
    Chairwoman Fudge. Thank you very much.
    As you can see, we have a distinguished group of Members 
here who are very interested and concerned about what is 
happening in this country today as it relates to voting rights. 
I would now ask--at least introduce all of the panel.
    You know your role. You've got five minutes each. You know 
the light system. Green. When it goes to yellow, that means you 
have one minute left. When it turns red, that means it's time 
to wrap up.
    Mr. Rolando Rios, who has concentrated his entire career 
principally in--in federal and state election law, equal 
protection, redistricting, and governmental affairs, we thank 
you, sir, for being here. You will be first to testify.
    Mr. George Korbel, who is a veteran civil rights attorney 
who has fought for the minority voting rights of Texas for more 
than four decades.
    Mr. Matthew McCarthy from the ACLU Foundation of Texas. We 
welcome you as well, sir.
    And last to testify will be Chad Dunn, Chad Dunn has 
handled numerous trials and appellate matters related to voting 
and civil rights.
    Mr. Rios.
    Mr. RIOS. Thank you, Chairwoman Fudge and Subcommittee 
Members. It's an honor to present testimony today in support of 
amending and strengthening the Federal Voting Rights Act.
    My name is Rolando Rios. I am a voting rights attorney in 
private practice here in Texas. My practice in voting rights 
started immediately after graduating from Georgetown Law. I 
have been doing voting litigation for the past 35 years mostly 
as a private practitioner working with the NAACP, MALDEF, 
Southwest Voters, Legal Aid, and other public interest groups.
    My office has been involved in over 250 voting rights cases 
in Texas. The list of cases is attached to my testimony along 
with a map identifying where that litigation occurred.
    I hasten to add that we had a 95 percent success rate 
because of the Voting Rights Act. The great success was not 
because we're such great lawyers but because of the 
effectiveness of the Voting Rights Act. The Act eliminated at-
large voting in Dallas, Houston, Fort Worth, San Antonio, Waco, 
Lubbock, Midland, and Odessa, just to name a few cities in 
Texas.
    After the 2013 Shelby case, the success rate dropped 
dramatically and turned the dogs loose, so to speak, on the 
minority community by enabling the passage of some of the most 
repressive state voting laws. We need immediate action from 
Congress to combat the adverse effects of the Shelby case.
    There is now a continued all-out assault on the right to 
vote by the State of Texas against Latinos and African-
Americans. This all-out assault started in 1994 after the 
effects of Ronald Reagan's immigration bill that allowed 
millions of Latinos to become citizens. After the 1994 
elections, the Republican Party realized that 70 to 80 percent 
of the new Latino citizens were voting for Democrats. At that 
point, the Republicans declared ``We have an immigration 
problem.'' As the Republicans took over Congress for the first 
time in 30 years, there has been a continued drumbeat of ``We 
have an immigration problem.''
    No, we don't. We do not have an immigration problem. The 
problem is that the Republican Party refuses to address the 
issues of importance to the minority community and instead have 
decided to pursue a sinister and illegal strategy of denying 
minorities the right to vote. This is why we need congressional 
action.
    Since the Shelby decision, the assault on the right to vote 
in Texas has intensified as follows, for example, the City of 
Odessa, whom we sued in 1985 challenging at-large elections and 
won in federal court, ordered the creation of single member 
districts. This year, as the minority community became stronger 
and minority control was looming, the city passed a charter 
amendment reinstating at-large voting. This would never have 
happened before Shelby.
    The voter ID law was passed after Shelby, and after years 
of litigation, was declared unconstitutional by the federal 
courts. This law would never have been passed in the first 
place by Texas before Shelby.
    Last, this--this--this past week, the Secretary of State of 
Texas sent letters questioning the voter registration of 95,000 
mostly Latino naturalized voters.
    Texas went back to 1996 to identify naturalized voters. 
These are individuals that were in this country legally and 
obtained driver's licenses before they became naturalized. 
After they naturalized, they registered to vote and have been 
voting consistently.
    With no substantive facts or factual basis, now Texas wants 
them to produce naturalization papers. This is clearly an 
intent to intimidate and harass Latino voters. I predict that 
this strategy against naturalized citizens voters will continue 
throughout the country.
    Also, judicial findings of intentional discrimination have 
increased since Shelby. A court declaring a state action as 
intent to discriminate was a rare occurrence in this country. 
Courts usually attempt to resolve voting litigation without 
getting into Constitutional findings.
    For example, in 2011, Texas congressional redistricting 
plan split the African-American and Hispanic communities in the 
Dallas-Fort Worth area into seven different Anglo-controlled 
congressional districts. I have a map here just to illustrate 
the point that the area in the--outlined in the dark line is 
the minority area in the Dallas area. This minority area was 
split into one, two, three, four, five, six, seven different 
districts so they would get controlled by Anglo districts.
    This area here, the court called it a lightening bolt that 
went down here and picked up the Latinos from Tarrant County 
and put them up in Denton so that they couldn't have a right to 
vote.
    In Congressional District 30--and we're familiar with 
Congressional District 30--was already 81 percent Latino and--
and African-American, and they increased it to 85 percent, 
basically eviscerating the minority community. This is the kind 
of outward and aggressive action that--that is--is continuing 
to occur.
    Finally, in the Perez case, which is the congressional 
redistricting case, the court found that the map drawers acted 
with an impermissible intent to dilute minority voting 
strength. The court found intentional packing and cracking 
against minorities.
    Every decade since 1970----
    Chairwoman Fudge. It's time, please wrap it up.
    Mr. Rios. Okay. All right. And I--I'll submit the rest of 
my testimony.
    Chairwoman Fudge. Thank you.
    Mr. Rios. We were--we had been told that it was going to be 
ten minutes. That's why I went over. No problem. Thank you.
    Chairwoman Fudge. Thank you very much.
    I think we are saying a total of ten, but it would be five 
minutes of testimony and five minutes of questioning.
    Mr. Rios. Okay. No problem.
    Chairwoman Fudge. Mr. Korbel.
    Mr. Korbel. My name is George Korbel. I had the distinct 
pleasure of being involved in the--putting the case together to 
extend the Voting Rights Act to cover Texas back in 1975.
    And I want to do two things here. I want to discuss what we 
were facing in 1975, what the obstacles were, and then I want 
to demonstrate that those obstacles are almost exactly the 
same, that there's very little change.
    I've had--also had the opportunity of preparing several of 
you for testimony in various hearings, and I've handled--White 
v. Regester, I was the lead counsel for the Hispanics in White 
v. Regester, and I handled litigation for single member 
districts in the City of Houston, the City of San Antonio, the 
City of Waco, and several dozen other cities in the state.
    The last time this Committee came to Texas was in 1982 for 
the reauthorization of the Voting Rights Act in 1982, and I sat 
at a table like this in Austin, and sitting right here to my 
left was the head of elections in Texas under--under our first 
Republican governor since reconstruction, Doug Caddy. And Doug 
and I--Doug Caddy and I came from a meeting with the Governor 
earlier in the day, and the Governor said, ``Absolutely. We' re 
in favor of continuing the Voting Rights Act.'' Doug Caddy was 
one of the founders of The Federalist Society. He was a 
consummate Republican conservative, but he believed that 
everybody ought to have the right to vote.
    There are several attachments that I have. One I want to 
point out is that in 1975 when we put the pitch together for 
Congress, we dealt with eight cases--eight cases or six cases, 
depending on how you analyzed it, but at the most, eight cases, 
and they had--and then another area, which was discouraging 
people to vote.
    Texas had--now I've attached to the statement a 350-page 
list of cases. We now have more than 400 cases in which either 
we have administrative findings of discrimination--voting 
discrimination or judicial findings of voting discrimination. 
And I urge you to take a look at a little bit of it. The first 
85 pages deal with the previous 20 years in Texas, and it adds 
about 110--110 of these cases. And when we looked at--when we 
prepared the extension in 1975--in 1975, we looked at the 20-
year period before.
    The next thing that I've attached is--deals with in fact, I 
used--part of the document that I used back in 1975, the 
question was Texas is not part of the South. Texas is very 
different. And that's what the argument went.
    Well, I've got a short list of all of the cases. Texas was 
exactly the same as all the other jurisdictions in the South, 
except we didn't have a grandfather clause. We didn't have 
those sorts of things because we had a statute that said blacks 
couldn't vote. And that was litigated up through the 1950s. 
That issue was litigated up through the '50s.
    The other thing I want to point out in the time that I've 
got is that the other issue that we were dealing with was 
discouraging people to vote, and there were two areas in that. 
One was a complete purge. Texas had passed a complete purge of 
all the registered voters which was going to take place in 
1975. We stopped that. The same purge is going on now, exactly 
the same thing. And I want you to take a look at the charts 
that I put in.
    In 1975 when we dealt with this the first time, Anglos, as 
we call white people in Texas, Anglos, were two-thirds of the 
population. Blacks and Hispanics made up a third. Today, blacks 
and Hispanics are almost two-thirds of the population, and 
Anglos are less than that.
    And--let me make one more point. In 1975 when we dealt with 
this before, there were four congressional districts in which 
Hispanics had the power to elect, four congressional districts 
out of 24. That's 16 percent. Today, there are six out of 36. 
That's 16 percent. Exactly the same. It hasn't changed. And the 
reason for that is because of the gerrymanders.
    Now, Rolando talked about--the congressional districts in 
Dallas and Fort Worth were split in eight ways. The only 
district that's contained wholly within the district is the 
Congressman's district in Dallas County. Otherwise, they go all 
over the state, so--yes.
    Chairwoman Fudge. Thank you very much.
    I just want to make you aware that we are going to keep the 
record open for at least two weeks. So if there's other 
information that you want to submit to us, you'll have two 
weeks to do that, but I do want to make sure that we can have 
questions, because there's so many questions I want to ask.
    Mr. McCarthy.
    Mr. McCarthy. Yes. Good morning. My name is Matthew 
McCarthy, and I'm here on behalf of the American--on behalf of 
the American Civil Liberties Foundation of Texas.
    The ACLU of Texas thanks you for the opportunity to testify 
today on this very important issue and applauds the 
reinstatement of this Subcommittee, given the importance of 
combating voter suppression and encouraging electoral reform 
efforts that are directed at protecting the right to vote and 
also making it easier for citizens to register to vote and to 
cast their ballot.
    Voting is the cornerstone of our democracy, and it is the 
fundamental right upon which all of our civil liberties rest. 
Through litigation and advocacy, the ACLU of Texas has fought 
and continues to fight back against attempts to curtail the 
right to vote. Despite our best efforts and those of other 
organizations and attorneys represented here today, politicians 
in Texas and across the country continue to pass laws that 
suppress the right to vote by imposing obstacles onto 
registration, cutbacks on early voting, and strict voter 
identification requirements, among other impediments.
    I'd like to focus today on two examples of the way in which 
the right to vote in Texas is being curtailed; and I'll start 
with the voter identification laws that have already been 
mentioned. The voter ID laws in Texas were introduced 
immediately following the Supreme Court's decision in Shelby 
County be hold up, and they require voters to present one of 
seven approved forms of government-issued identification before 
being allowed to vote. If a voter doesn't have one of the 
approved forms of identification, he or she can sign a 
declaration attesting under penalty of perjury that there is a 
reasonable impediment to having one of those forms of approved 
IDs.
    The voter ID laws were the subject of extensive litigation 
and were found by three district courts to have 
disproportionately burdened voters of color, and that was 
because of evidence that minorities are generally less likely 
to have one of the forms of approved ID and also less able to 
obtain one of those forms of approved ID, given the cost in 
terms of time and money in getting one; however, the current 
form of the ID law was ultimately approved by the Fifth Circuit 
Court of Appeals and was in place in time for the midterm 
elections last year.
    Now, the ACLU of Texas together with the Texas Civil Rights 
Project and other organizations worked as part of a coalition 
during the election last year to protect the right of Texans to 
vote. As part of that coalition, we had call centers staffed by 
trained volunteer attorneys taking calls from around the state, 
and we also had a number of field volunteers working at polling 
locations assisting voters with queries.
    What we found through that process was a significant amount 
of confusion and misinformation about the voter ID 
requirements. To give some examples, we heard reports of voters 
attending polling locations in rural Texas where election 
officials posted a sign saying, ``Must have driver's license to 
vote.'' Other reports in some of our large metro areas were of 
poll workers telling folks who were lining up to vote that you 
needed to have photo ID or you wouldn't be permitted to vote.
    This is plainly incorrect under the law. And while we were 
able to address it, you do wonder how many voters saw that sign 
or were given that information and simply turned away and 
didn't exercise their right to vote. And that's a particular 
concern in polling locations where there are long lines. People 
aren't going to line up and vote if they think their vote won't 
be counted.
    Similarly, a voter in Houston called to tell us that she 
presented her United States passport only to be told that this 
was not a valid form of ID. Again, plainly incorrect.
    We also received reports from voters who didn't have an 
approved form of ID and asked to make a reasonable impediment 
declaration only to be challenged by election workers, 
sometimes aggressively, about the reasons why they didn't have 
an approved form of ID.
    What these examples demonstrate is the difficulty voters 
face in navigating the voter ID laws and the magnification of 
those difficulties which arises when election officials are 
poorly trained or in some circumstances see their role as 
questioning and intimidating voters who don't have one of the 
approved forms of government ID. Not only does this place a 
real burden on voters, particularly minority voters, but we 
fear that in many cases, voters will simply accept what they're 
being told and will turn away and won't cast their ballots.
    The second issue I wanted to touch on briefly is the voter 
purge exercise that's been announced and has been discussed 
briefly already. On January 25, 2019 the Texas Secretary of 
State issued an advisory to all election officials around the 
state informing them that his office had been working with the 
Texas Department of Public Safety to identify potential 
noncitizens who are registered to vote.
    The Secretary said that his office had identified 95,000 
such individuals, 58,000 of whom had cast a ballot at some 
point in the last 20 years. The Secretary generated his list by 
using information provided by the Department of Public Safety 
about individuals who at the time of applying for a Texas 
driver's license had given indication indicating they were a 
noncitizen.
    When those individuals were located on the voter rolls, 
counties were told they should investigate whether those 
individuals were eligible to vote by sending a notice of 
examination requiring them to provide documentary proof of 
their citizenship, and if they didn't respond within 30 days, 
their registration would be cancelled. Of course, their biggest 
flaw in this exercise is that no attempt was made to identify 
people who became citizens and registered to vote after they 
applied for their Texas driver's license.
    I see the time, so I'll conclude my remarks there.
    Chairwoman Fudge. Thank you very much.
    Mr. Dunn.
    Mr. Dunn. Thank you. It's my honor to be here today, and 
I'm honored to be at this table with these gentlemen and 
invited here with this lady who I consider to be heroes of my 
state.
    I have been a civil rights lawyer here in Texas for almost 
20 years. I currently also serve as an adjunct lecturer at UCLA 
and a co-director of its voting rights project.
    I have represented the state Democratic Party as my honor 
since 2003. And its current chairman; Gilberto Hinojosa, and I 
have been in the middle of many of these election fights that 
you've heard of and some more that you--that you'll hear of 
today and elsewhere.
    I was asked to come here today and talk to you about the 
material effects of the Shelby County decision, and so I'm 
going to tell you a story from my perspective. I happened to 
have been in the Supreme Court chamber when the U.S. Supreme 
Court issued the Shelby County decision. And there was a 
majority, if not a quorum, of American civil rights heroes in 
the courtroom. And as the clerk announced that Chief Justice 
Roberts has the opinion, you could here the weeps in the 
chamber, and you knew what was coming next. And although I 
can't be sure, I thought I saw tears on some Supreme Court 
justices.
    Some of these gentlemen and others that I was there with 
knew immediately what the effects would be, and unfortunately, 
they were so. As I stepped outside of the courthouse and 
retrieved my phone--the Supreme Court doesn't allow you to take 
your phone in there--turned it on, the first thing I learned, 
Congressman Green, was then Attorney General Abbott's tweet 
that voter ID laws would be in effect in Texas, despite the 
fact that a three-judge court in Washington, D.C., had found 
the law to be discriminatory. And that court was made up of 
judges appointed by diverse presidents.
    This state decided to move forward, because as it saw it, 
Shelby County opened the gates. Over the course of the next 36 
hours, I drafted a lawsuit on behalf of Congressman Veasey and 
others, filed a lawsuit here in Texas. We were joined by many 
other soldiers of the civil rights community. And over a period 
of years, we were able to beat back part of the voter right--
voter ID law in Texas, but, nevertheless, there remains a 
process of separate but unequal voting for people who don't 
have the means to have a photo ID, which are estimated to be 
approximately 950,000 registered voters in Texas.
    But there were other effects that don't get as much 
attention as redistricting or voter ID, and those are the--
those are the events that I'd like to speak with you a bit 
about. I had been involved in a case, when Shelby County came 
down, in Beaumont, Texas, the Beaumont School District. And it 
would take quite some time to lay out the sordid events in 
Beaumont, so I'll--I'll grossly oversimplify it.
    But essentially, the district has been majority black in 
its voting population since the 1980s, but it wasn't 
integrated--an integrated school district until 1985 under 
Brown v. Board of Education. And it ultimately took a series of 
court decisions until the 1990s to give blacks legitimate right 
to vote for their school board.
    A majority of blacks served on that school board before 
Shelby County came down, but white citizens had managed to get 
a ballot initiative to force at-large voting in the school 
district. And the state courts had ordered the school district 
to go to partial at-large voting. This would have had the 
results of putting the whites in charge of the school district 
despite it being majority black.
    A federal court in Washington, D.C., under Section 5 of the 
Voting Rights Act, a case I was involved in, enjoined that 
change. It made the school district stay as it had been ordered 
by previous federal courts. After Shelby County, all that was 
undone. And as we sit here today, the school board in Beaumont 
still does not have, in my opinion, a--an elected board that 
represents its community.
    Also, as I stepped outside of the courthouse, I received a 
phone call from a friend of mine in Galveston where we had 
obtained an injunction under Section 5 of the Voting Rights Act 
to prevent the elimination of justice of the peace and 
constable districts that has historically elected African-
American and Latino candidates of choice.
    The county had decided on a budgetary matter to reduce the 
number of districts. And despite the fact that most growth in 
the county were black and Hispanic, it was those districts they 
chose to eliminate. We had stopped that under Section 5. When 
Shelby County was issued, the county immediately implemented 
it. Those offices do not exist now. And although there's a 
Section 2 lawsuit pending, it's been pending for five-plus 
years, and there's not yet a resolution in sight.
    Finally, I want to talk about Jasper, Texas, where James 
Byrd was gruesomely dragged to his death in a hate crime in the 
1990s. Every time I drive through Jasper, I see his grave. And 
it has to have extraordinary security mechanisms, because even 
to this day, it's vandalized by white citizens in that 
community. In Jasper, the community decide to vote at-large to 
remove a district office. So imagine, for example, all citizens 
of the United States could vote to remove one of you.
    And they were successful because the city was majority 
white. A black city council person was removed. Because the 
Voting Rights Act has been so harmed by the Supreme Court and 
other judicial decisions, there was nothing we were able to do 
with that. This person--this city council person was removed.
    So there's redistricting. There's voter registration. 
There's countless polling place changes. And it's scary to 
think, but there are scores of other changes we don't even know 
about that can't be done or dealt with because of the injury to 
Section 5. So I appreciate the important--your work you're 
doing, and I thank you very much for allowing me to present to 
you.
    Chairwoman Fudge. I thank all of you. This has been some of 
the best testimony I have heard in some time, and I thank you 
for that.
    We're going to open it up for questions. And I'm just going 
to let--in the same order that they spoke, if they have a 
question, we'll just go in that order.
    I do want to ask one question just off the top since my 
colleagues continue to talk about voter fraud. Do you see a lot 
of voter fraud?
    Mr. Korbel. Almost none.
    Chairwoman Fudge. Okay. I just want to be sure, because 
that's the narrative. It's not violations of the Voting Rights 
Act. It's voter fraud, is the narrative coming out from my 
colleagues in Washington.
    Mr. McCarthy. I think that's right. I mean, I think all of 
the available evidence shows that in-person voter fraud in 
particular is exceptionally rare. And notwithstanding that, you 
know, we're currently seeing attempts to provide additional 
funding to the Texas Attorney General's so-called voter fraud 
units. So there is that narrative that's out there, but it's 
just not reflected in--in the actual evidence.
    Chairwoman Fudge. Thank you.
    Mr. Thompson.
    Mr. Thompson. Well, I think the testimony has been quite 
revealing in the sense that Texas is trying to act like 
Mississippi in voter suppression and other things. The question 
that I think we are tasked to address is, you know, we have to 
get the record. That--that voluminous document that you 
presented, we absolutely need all of that, because one of the 
reasons we got to where we are today is the Court said, for 
whatever reason, in Shelby there--there wasn't enough of a 
record to--to justify the position, which some of us obviously 
disagree with.
    The question is--we're on a short time frame. I think we're 
tasked to be by--by June to have these sessions over with. And 
just as a comment, if you have any idea of what's going on out 
here around the country, let us know, because we want to make 
sure the record is perfected to the point that no stones are 
unturned.
    The challenge for a lot of us is the notion of packing and 
stacking in terms of redistricting, the uniqueness of voter 
suppression that's going on in areas. My state just reduced--
attempted to reduce the number of days that a person can clear 
up a question of residency from five days to two. And you have 
to clear it up in person. You can't do it electronically or 
anything. So I might have to go take another day off work to 
just prove who I am and where I reside.
    Some ask, well, what's wrong with that? Well, in my 
district, we don't have public transportation. So I'm going to 
have to, in addition to take off work, go to an additional 
expense of trying to prove that I'm a registered voter. So 
those challenges, how small they might seem, tamp down 
participation.
    And so I--I guess to--to Mr. Korbel, you've been out here a 
long time. So are you seeing purges taking place in communities 
now? You know, in the Voting Rights Act, sometimes you were 
federally registered. They used to say you had--they couldn't 
take you off the roll.
    Mr. Korbel. Well, in some senses, the voter ID law is a 
purge, because what we're doing is we're--we're doing--
essentially doing away with voter registration and changing it 
to driver's licenses or Texas IDs.
    Now, it doesn't sound like that's a big deal, but an awful 
lot of people have parking tickets or minor violations. They 
don't want to go anywhere near the DPS because they're going to 
get arrested and they're going to spend time in jail. And so we 
were essentially purging our rolls.
    And there's also talk in the legislature about another 
whole purge, like was being proposed when we got the Voting 
Rights Act in '75. There--I think there were 7 million letters 
stamped ready to go out when the court issued the injunction--
the first injunction under Section 5 to stop that purge.
    Mr. Thompson. So the other point I want to make, and I'll 
ask real quick, are you aware of any of this so-called voter 
fraud taking place? Do y'all have any--because some of what we 
are being told is we're doing these things to protect the 
integrity of elections and all of that. So are you all aware of 
that taking place for a majority of the people we're talking 
about?
    Mr. Rios. I'm not aware of any voter fraud. There may be an 
election contest here or there where they can prove somebody 
might have taken somebody's ballot and brought it in absentee, 
something like that, but none--no widespread voter fraud 
whatsoever.
    Mr. McCarthy. I mean, there are some isolated instances 
that we've seen where the Texas Attorney General has taken 
action against people for voter fraud and has secured some 
convictions, but generally speaking, the circumstances of those 
cases are mistaken understanding about when you can vote, for 
example, when you're coming off a felony conviction, people 
just misunderstanding the requirements and not purposely 
intending to commit voter fraud.
    Mr. Dunn. And I would just add I agree with that 
assessment. There is some limited in-person voter fraud. And 
the laws are significant and adequate to deal with them, and 
it--and it does deal with them.
    Where there is some legitimate voter fraud is mail-in 
ballots, but the perception here in Texas is that white 
citizens--the political perception here in Texas is that white 
citizens avail themselves of the mail-in ballot more than do 
other citizens of color, so our legislature has at least thus 
far chosen to not do anything about that type of voter fraud 
and instead has, you know, chased the boogeyman under the bed, 
so to speak, on these limited circumstances of in-person voter 
fraud.
    Mr. Thompson. Thank you.
    Chairwoman Fudge. Ms. Johnson.
    Ms. Johnson. Thank you very much. And let me thank all of 
you for being here.
    In 1992 when I went to Congress, there were 30 members of 
the delegation, 21 were Democrats. Less than a decade, this 
reversed, and it continues to be reversed, even though the 
minority population has grown tremendously since then. And we 
now have 36 seats, but the ratio is about the same as it 
changed the first big court type of redistricting in the 
midterm--mid census. And we're still electing statewide elected 
officials of the party that's not the party of choice of its 
minorities.
    Do you think it's voter suppression in the state that 
influences that, or are there pockets in our rural areas that 
are not performing because of not having more contact perhaps 
with persons of their voting choice?
    Mr. Dunn. I definitely think that's a lot of the reason. I 
mean, there's been decades' worth of efforts to suppress the 
vote, and they've been effective. So a lot of people have 
gotten the message, unfortunately, I'm not wanted at the 
polling place, so I don't go. So there's a lot of that, 
unfortunately, which the Voting Rights Act was helping to 
repair.
    Other problems, of course, is a lack of competitive 
elections. The districts are so badly gerrymandered that there 
are very few places where there is a competitive election. And 
that further discourages people from turning out.
    And we saw consistent, and across the state, incredible 
growth in turnout this last electoral cycle when we had a 
marquee race for the U.S. Senate here in Texas. And so it goes 
to show that when you have legitimate competitive elections, 
you can overcome some of the voter apathy that we see, but the 
decades of voter suppression are going to have to be dealt 
with.
    Ms. Johnson. Do you think that where the voting place is 
located has any influence? It's been a while ago, but one of my 
former House colleagues came to Dallas from East Texas and said 
they had placed the polling place at the jail and that the 
minorities just stopped voting.
    Is there a reason to--is there any protection for that kind 
of thing? I know with the absence of the Voting Rights Act you 
don't have to get clearance when changes are made now, but do 
we document that? Does that make a difference in the courts?
    Mr. Korbel. Let me answer the--let me answer the question 
this way. One of the advantages of Section 5 was that we got 
notice that all this stuff was going on. The Department of 
Justice would publish a notice, I think, weekly of all the 
submissions they had gotten so we could look and see where 
these polling place changes were made.
    Now none of that's taking place, and you know how big Texas 
is. There's no way that we can be in every one of our 254 
counties and--except under Section 5 when we got this early 
notice. And the result of that is we have 254 counties. There 
are 60 counties that have more than a third minority population 
that don't have a minority county commissioner. And those are 
all because of a gerrymander.
    In 1975, of course, there were no black county 
commissioners. And I think probably every one of the 30 black 
commissioners we have now I can show you the lawsuit that put 
them in there.
    Ms. Johnson. Yes. It is interesting that the precision on 
which this gerrymandering has been done has come since the use 
of computers. So has that worked for us or against us?
    Mr. Korbel. Well, the other side has a lot more money and a 
lot more time and a lot more people, and it really works 
against us.
    Ms. Johnson. Thank you very much, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Mr. Cuellar is going to have to leave us. He is having a 
little thing like whether we need a wall on the border, so he's 
going to leave us shortly.
    So, Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    And again, I just want to, first of all, thank all the 
Members here and Mr. Vela for hosting us here.
    Let me first say, what Mr. Korbel said, the first time 
since 1982 that the Committee has been here, so I just want to 
thank you for providing that leadership.
    Three quick points that have been brought up. Number one, 
the last time we had a redistricting, Texas grew by 4.3 million 
individuals. 65 percent were Hispanics. You add the African-
Americans and other minorities, 90 percent of the growth that 
we had were minorities. And as you know, the legislature wanted 
to do it the other way. They wanted four-zero and none for the 
minorities. And again, because of these attorneys, we were able 
to at least get two and two.
    So if you all can mention how many congressional Hispanics 
are--Hispanics have grown since the last 50 years. I think it 
was 14 percent and 16, but if I can just--just bring up two 
more questions.
    The voter ID--things don't just happen in Texas by 
accident. I mean, there is a plan to do redistricting, voter 
ID, everything else. If--if you remember the way they did the 
voter ID, this card would have not allowed me to vote. This is 
a U.S. House of Representative ID card. This would have 
rejected me, would have not allowed me to vote. I would have to 
get a Texas driver's license.
    The problem was, in some areas, there were some--there's 
some counties out of the 254 that have no DPS office. And if 
they had to travel, they had to travel miles and miles and 
miles. So if you all can comment. I know it's been adjusted a 
bit.
    The other thing is let me give you my perspective. I was a 
Texas Secretary of State, and I want to address the point about 
voter fraud. When I was there as the Texas Secretary of State, 
the issue of voter fraud was brought up. Maybe you have a case 
or other, and they blow it up and make it sound that there's 
rampant voter fraud.
    As the Texas Secretary of State when I was there, we didn't 
have that type of situation. It was just they take one case, 
they take a politiquera, they take a mailman, and they make it 
sound like everybody has committed voter fraud here. So those 
are the points, and I would be happy if you can talk about 
those three points.
    Mr. Thompson. Then we have a North Carolina situation.
    Mr. Cuellar. Yes, we've got the North Carolina situation 
now.
    Mr. Korbel. In 1975, we had 24 congressmen. Had Texas--had 
the minority population in Texas grown at the same rate as the 
Anglo population, today we would have 23 congressmen. We would 
have lost a congressman. Instead, we've picked up 16 
congressmen, and it's all as the result of minority growth.
    And I told you that there were 16 percent in '75, and 
there's 16 percent today. That--the only reason we got the 16 
percent is because we had to litigate to get Congressman 
Veasey's district in Dallas and Fort Worth. Had we not gotten 
that, we wouldn't even be at 16. So it's a----
    Chairwoman Fudge. Thank you.
    Mr. McCarthy. If I could just make a couple of very brief 
comments about your other points. On the question of acceptable 
forms of ID, I think I've seen some statistics that say that 
around 11 percent of Texans don't have one of the approved 
forms of ID, and that 11 percent of the population is 
overwhelmingly made up of minority communities.
    And I think I've also seen some data that shows that the 
cost of getting an approved form of ID can be anywhere between 
$75 or $175, which is a significant amount of money for many 
people.
    The other thing I wanted to mention is in relation to your 
comment about there being a plan. We're seeing that right now 
with the voter purge exercise that's going on with the Texas 
Secretary of State. That exercise coincides with bills being 
introduced into the current legislative session in Texas that 
are requiring documentary proof of citizenship for voter 
registration. So it's all part of a plan that's leading towards 
that legislative change.
    Chairwoman Fudge. Thank you.
    You know, in my community, we would call what you talk 
about a poll tax. And what you were talking about, Mr. Korbel, 
we used to say, ``The more things change, the more they stay 
the same.''
    Mr. Lujan.
    Mr. Lujan. Thank you, Madam Chair.
    Each of you touched on and described actions that are 
taking place now, the same actions that were taking place, 
whether it was in the '70s or prior. But I want to zero in on 
post-Shelby. If you could shed some light on specific actions 
in some detail.
    And I'll start, Chad, with you, Mr. Dunn, post-Shelby that 
are taking place now that are getting in the way, that are 
hurting people, that are discriminatory in practice, that 
clearly should be a violation of the Voting Rights Act.
    Mr. Dunn. Sure. Thank you. I mean, and, obviously, I don't 
want to waste the Committee's time or--but the Beaumont 
situation is really one of the worst environments I have ever 
been in.
    When you go to a school board meeting in Beaumont today, 
all the white citizens sit on one side of the room, and all the 
black and Latino citizens sit on the other side of the room. 
Now, it's not forced by any authority, but that's how the 
community still operates. And the constables who are black and 
Hispanic stay on the white side of the room, and the white 
constables stay on the minority side of the room.
    And I made the mistake at one meeting of sitting down with 
a friend of mine who's an African-American citizen there. I was 
working on the school board issue. And, I mean, I had white 
citizens shout me down, ``You're sitting in the wrong spot,'' 
and say all kinds of nasty things to me about where--this is 
today. I mean, you know, this is within the last five years. 
You go to a Beaumont ISD school board meeting today, and it 
will look like this.
    So, you know, the--what happened in Beaumont, Galveston, 
and Jasper I just described to you would not have happened had 
Shelby County not been issued. There have been scores of 
polling place changes, some, you know, that we know of. I'm 
sure there's been hundreds that we don't know of that have 
material effects on people being able to get out to vote.
    There are a number of school districts and counties, more 
than I can, you know, list for you now, that are either going 
to at-large elections, which is a cornerstone method of 
discrimination in voting, is you elect at-large instead of 
districts. And some of them have done so, and I believe many 
more will follow.
    I have heard--I don't have direct evidence of it, but I 
have heard that after Shelby County, the State sent message to 
communities to take their time making changes, to roll it out 
slowly as a way to--to sort of hide the effects of it. And it 
looks to me like that's happened.
    But it doesn't change the--the very real injury that 
started the afternoon of--what was it--June 26, 2013, when 
Shelby County was issued and continues every day since.
    Mr. Rios. I would also add that this issue of questioning 
the right to vote of people that have become naturalized 
citizens, starting to send letters to them, you know, ``We have 
a question about when you became a citizen,'' ``Do you have 
proof,'' and all that, I think that's going to have an adverse. 
effect on--on many voters who might--might be scared. ``What? 
Are they going to come after me? Maybe I-- maybe I made a 
mistake on the application,'' whatever. I think it's going to 
have an impact in--in chilling the--the person's right to vote.
    Mr. Korbel. Maybe I can say a little bit more about Section 
5. The Texas Education Agency has the right to seize school 
districts and displace elected officials, take over school 
districts if they--if they feel that there's a problem.
    Now, under Section 5, we almost completely prevented that 
from happening. Since the doing away with Section 5, the TEA 
has been seizing these school districts, and Beaumont was one 
of them. They seized the school districts, and you end up--
Beaumont had a black superintendent, black board members, and 
now it's controlled by the whites. It's----
    Mr. Dunn. And that's something you would have had to 
preclear before----
    Mr. Korbel. Yes.
    Mr. Dunn [continuing]. But you don't.
    Mr. Lujan. And Mr. McCarthy, as time has run out here, what 
I'd ask is just if these instances, whether it's in Texas or 
with your experience in other parts of the country, if you 
could please submit those in writing to the Chair. Thank you 
very much.
    Chairwoman Fudge. Certainly those are the unintended 
consequences.
    Ms. Jackson--oh, I'm sorry. Mr. Vela.
    Mr. Vela. Thank you.
    I'm struck by a few things. The fact that this is the first 
hearing on this issue since 1982 in the State of Texas makes 
you realize and it makes you appreciate Congresswoman Fudge's 
effort to bring this hearing to South Texas and shed light on 
this very important issue.
    Number two, I've heard of many of you over my last three 
terms in Congress, but--except for Mr. Rios, had not had the 
opportunity to meet you individually. And I must say now I get 
it. Your--your testimony has been so compelling and shed so 
much light on the battle that you consistently wage to protect 
the very people for which the Voting Rights Act was passed. It 
is something that we we--we owe a great deal for that.
    I must say the other thing that strikes me is that I just 
began my fourth year in Congress. And believe it or not, to 
just give you an idea of the depth of experience that is 
visiting us here today, I am the junior member in this 
congressional delegation. And--and so again, I thank all my 
colleagues for that as well.
    Mr. Korbel--I have two questions real quick. I think, Mr. 
Rios, earlier, when we were in the back, you wanted to shed 
some light on the issue of the census question and the status 
of that litigation as well.
    Mr. Rios. Yes. Real quickly, we did win a case in New York. 
I represented Hidalgo and Cameron County where the judge struck 
the citizenship question from the census form. And it was a 
great victory. It was a 277-page opinion.
    One of the looming facts was three of the scientist experts 
in the Census Bureau had told Secretary Ross, ``You can't do it 
this way. Normally, we test the question for a year, two years 
to make sure that it's effective and that it doesn't compromise 
accuracy. What you're doing here is going to compromise 
accuracy. Instead of having a 3 percent, perhaps, undercount in 
certain areas, we could have a 15 percent undercount, which 
means we're not doing an actual census.'' And that opinion was 
a great victory.
    Right now, the Trump Administration is trying to appeal 
directly to the Supreme Court because they don't have enough 
time to get it reversed by the Second Circuit because the 
census forms have to start printing in June.
    Here's where you, the Congress, could get involved, because 
you have a direct responsibility with the Census Bureau. You 
can tell them, ``Look, forget about printing the form.'' The 
office of Budget and Management also, they have to put up the 
expense. There's hearings on that going on right now. So I hope 
that helps.
    Mr. Vela. Yeah. And maybe, Mr. Dunn, you can answer--
elaborate on this. I mean, just for the general public, why is 
this issue of the census question so important?
    Mr. Dunn. Well, so what's interesting is the American 
system was set up of large states and little states, as we all 
know from our history. And now we have this unique circumstance 
where you have a state like Texas that is actively working with 
the Census Bureau and folks to add a census question that will 
have the effect of reducing its political power, would result 
in fewer Congress people or districts being assigned to the 
state, fewer electoral votes, and importantly, billions of 
fewer dollars would flow into the state as a result of an 
incorrect count.
    And what that shows is how out of sorts our political 
alignment in this country has become. No longer are we rural 
states and urban states and big states and small states, which 
our Constitution was set up. States are willing to sacrifice 
their own political power to do harm to minority voting rights. 
And that's what the census question is all about is--is robbing 
from our citizens, our school districts, our roads, money so 
that there's not more Congress people from Texas that are 
elected from Latino and African-American citizens.
    Mr. Vela. One last question, Mr. Korbel. So as we wage this 
effort to protect voter rights, you sometimes hear, ``Well, all 
you're doing is really trying to allow noncitizens to get a 
right to vote.'' How do we confront that question?
    Mr. Korbel. Well, I--I think it's very uncommon for a 
noncitizen to try and vote, because what will happen is if they 
get caught, they'll be deported immediately. So they--there's 
just no incentive to do that. And there's also no incentive to 
turn out--people to turn out a lot of undocumented people to 
vote.
    The closest election we've had in--in 20 years is the one 
we just had for the Senate, and that was almost a quarter of a 
million votes' difference. Do you realize the size of fraud 
you'd have to do to deal with a quarter of million votes? That 
would be an enormous fraud. I mean, maybe 50 votes you could 
change, but you couldn't change a quarter of a million.
    Mr. Vela. Thank you. I yield.
    Chairwoman Fudge. Thank you.
    Representative Jackson Lee.
    Ms. Jackson Lee. Madam Chairwoman, thank you.
    And again, let me emphasize the historic nature of this 
hearing. And to our host, Congressman Vela, again, as we hold 
this hearing in South Texas, it is really because of the 
experts that we have before us really telling the history and 
story of the entire state of Texas.
    Let me again emphasize that the Honorable Barbara Jordan 
who represented this district would not have bean elected had 
it not been for the 1965 Voting Rights Act. She went first to 
the--to the State Senate on a district-lined Senate and then 
off to the United States Congress.
    But let me pose questions based upon my being on the House 
Judiciary Committee when the panic went out that the Voting 
Rights Act was getting ready to end and we had to create 15,000 
pages that brought about the bill signed by President George W. 
Bush, obviously a Republican, and--and to try to track this 
questioning of state action and how vile that is, and maybe the 
word should go out that we're under attack again, and let the 
horrors of those who bombarded my office and the United States 
Congress phone saying, ``Don't let the Voting Rights Act go 
out,'' I think the message needs to go out we need them now.
    And so I want to pursue this line of questioning very 
quickly. Each of you will be a yes or no answer.
    Do you consider Texas one of the major epicenters of voter 
suppression? I'm going one by one. I just need----
    Mr. Rios. Absolutely.
    Mr. Korbel. Yes.
    Mr. McCarthy. Very much so.
    Mr. Dunn. Yes.
    Ms. Jackson Lee. Do you believe that state action is 
clearly part of that voter suppression?
    Mr. Rios. Absolutely.
    Mr. Korbel. Yes.
    Mr. McCarthy. Yes.
    Mr. Dunn. Absolutely.In fact, I'd say they're on the 
cutting edge of it here in this state.
    Ms. Jackson Lee. Based on the stories that you've been 
telling, let me go to this point. One, we know in the voter ID 
case, we had the Department of Justice documenting and 
supporting the position that Texas discriminated, discriminated 
in redistricting. The voter ID law was discriminatory.
    You now know that we have a new announcement saying that 
the DOJ will flip and now support the State of Texas where 
there's no intentional discrimination, which was found, and 
will indicate that we are no longer subject to preclearance 
Section 5, which obviously we've got to fix.
    It may take a little bit longer, but I--I'd appreciate----
    Mr. Rios. Within two hours----
    Ms. Jackson Lee. Mr. Rios, yes.
    Mr. Rios. Within two hours of the President's swearing in, 
there was a notice filed in the court--federal court on the 
voter ID claiming that they were going to realign themselves, 
within two hours.
    Ms. Jackson Lee. What impact is that when--when the--when 
the people's lawyer, the federal law firm that was the 
instrument of change in the civil rights movement flips?
    Mr. Rios. It has a tremendous impact, because now you have 
the federal government weighing in on important questions of 
law, and it has an impact on federal judges and the public at 
large too.
    Ms. Jackson Lee. Mr. Dunn, is there any basis for that 
flip? Is there any legal--is there any fact basis that should 
generate a flip to go against us in terms of saying no 
discrimination in Texas sufficient for preclearance?
    Mr. Dunn. None whatsoever.
    And--and I would point out that the Department of Justice, 
the only federal department named after an idea, has fought for 
voting rights since it was given the charge in the 1965 Civil 
Rights Act--Voting Rights Act. And even during other Republican 
administrations, although they would take actions that I 
wouldn't necessarily agree with, were consistent in enforcing 
voting rights, pursuing individual cases in communities. We've 
not seen any of that from the current administration.
    Ms. Jackson Lee. I want to make the point that the bulk of 
the members on this panel--I think my numbers are correct--are 
voting rights districts. And so two questions that you can take 
them and--what impact is demise and ending of voting rights on 
the idea of one person, one vote, which is what we're supposed 
to be adhering to, number one?
    Number two, given the Shelby decision, what type of record 
do you think needs to be built that could pressure the Supreme 
Court in its present configuration that Section 5 preclearance 
is an absolute necessity to ensure one person, one vote, and to 
eliminate the intimidation that has come about through closing 
polling places, short hours, and, of course, purging?
    Mr. Dunn. Well----
    Mr. Rios. Document the record. It's very important, just 
what you're doing.
    Mr. Dunn. The ability to influence and dilute others' votes 
is caustic to our democracy. And in the cut and thrust of 
politics where sort of anything goes, as you know as well as 
you do in running for re-election in the various races you've 
had to face, it's hard for other candidates to not use a tool 
that's available to them.
    And the message that we are delivering lately is that 
diminishing the right to vote of people that don't support you 
as a candidate is a proper campaign method. And it's going to 
continue to increase until Congress, the Supreme Court, and 
government in general can do something about it. And so this is 
an important first step.
    It's my honor to be here.
    Ms. Jackson Lee. Thank you.
    Chairwoman Fudge. Thank you, Mr. Green.
    Mr. Green. Thank you, Madam Chairwoman.
    Madam Chairwoman, if I may compliment you on your 
commentary with reference to the poll tax. Indeed, Texas has a 
poll tax. That's what it is.
    The question is how do we acquire and present the empirical 
evidence to support our contention in a court of law the poll 
tax exists. Texas will say--and I'm looking at the Department 
of Public Safety's Web site. They indicate on the Web site that 
you may acquire an EIC at no charge. That's an election 
identification certificate, at no charge.
    But, Mr. McCarthy, you've indicated that there is a charge 
associated with it, and I think we need to have you give some 
greater clarity as to what the charges are, for the record. 
This will be of benefit to us at a later time.
    Mr. McCarthy. Yeah. So what I was alluding to in that 
answer earlier was that--and I think other panel members have 
indicated that not every county in Texas has a Department of 
Public Safety branch. And in some instances, people have to 
travel long distances to get to a DPS office. They need to take 
time off work. They need to travel long distances. And they 
need to wait in line sometimes for hours and hours to get their 
election identification certificate.
    And so there may not be a financial cost in terms of 
acquiring the ID, but there's a significant cost for some 
people in terms of getting to an office, taking the time off 
work, waiting for--waiting in line and--and, you know, the--the 
costs involved in that travel and wait time.
    Mr. Green. Because time is of the essence, let me ask you 
quickly. Do you not have to have a birth certificate to acquire 
this ID?
    Mr. McCarthy. I don't believe you do.
    Mr. Dunn. You have to have a birth certificate or--to get 
one of the IDs. There's some--there's some substitutes for 
that, but the--by and large, most people get a birth 
certificate.
    Mr. Green. By and large a birth certificate.
    As you know, a good many people who live in Texas weren't 
born in Texas. The notion that the ID is at no cost is 
promulgated and promoted by Texas in that it will accord you 
your birth certificate if you're indigent, so they try to get 
around it.
    I tested the system myself. Here's how the system fails us 
and becomes a poll tax. I'm from Louisiana. Because I'm from 
Louisiana, when I went to vote, and I chose not to use my 
proper ID--could use my congressional ID, but I chose not to 
use the proper ID--I had to send to Louisiana to get my birth 
certificate.
    Texas doesn't cover the cost of a birth certificate from 
Louisiana. At that point, it becomes a tax, because Texas has 
tried to eliminate the cost of the birth certificate when, in 
fact, I had to pay for the birth certificate to get my ID. The 
five-day period that the Honorable Bennie Thompson mentioned, 
not enough time to get an ID from Louisiana and bring it back 
to Texas to get the free ID card.
    The 24th Amendment, when it speaks to this notion of a poll 
tax, it not only talks about poll tax in those explicit terms, 
it also mentions something else, and this is where I think we 
have a great argument.
    It indicates shall not pay--a failure to pay a poll tax, 
but then other tax, not just the word ``poll tax,'' but any 
other tax. The tax to buy your birth certificate is something 
that I think is onerous to the 24th Amendment to the 
Constitution. And at some point, I think we have to hone in on 
these nuances such as this.
    My friend, Mr. Dunn, your thoughts.
    Mr. Dunn. Well, two things about that. In the lawsuit, we 
actually brought a 24th Amendment claim. The district court 
ruled that it was, in fact, a poll tax, and then the Fifth 
Circuit overruled that part of the ruling. And we did 
ultimately prevail on other--on other theories, and that's why 
there's the reasonable impediment declaration that allows you 
to get around it.
    But there's a ton of people in--in your situation. I'd like 
to talk to you just a second about a gentleman named Floyd 
Carrier, an African-American Korean War Veteran who was born in 
a hospital on a county line in East Texas. And they didn't 
register his birth, so he can't get a birth certificate. It 
doesn't exist for him. And when the voter ID law went into 
effect immediately after Shelby County, he drove his tractor 
down to the polling location, because he can't drive. He 
doesn't have a driver's license.
    And he goes down there where everybody knows him. ''Hey, 
Mr. Carrier, how are you doing?''
    And they--and he says, ``Can I vote?'' And they said, 
``Well, we need your ID.'' And he says, ``I don't have an ID.''
    And they said, ``Well, Mr. Carrier, we know who you are, 
but we're not allowed to let you vote anymore. ''
    A veteran of the armed forces in the Korean War was--was 
excluded from voting because of some mistake made at his birth 
in paperwork. And now he has to go through the reasonable 
impediment declaration process, which, as I mentioned earlier, 
is separate but unequal in its own burdensome process. It's an 
improvement, but it's certainly no repair.
    So, yes, it's very much true that the that--that there 
continues to be a poll tax. It's not just that on birth 
certificates. Another example, we put people on buses in 
Houston, for example, and had them go get their birth 
certificate from certain addresses. And they'd stand in line. 
And, sure enough, you'd be missing a document, and they'd have 
to go home. Some of them, it ended up taking them four or five 
days would be off work. These were people we had, you know, got 
to do this.
    And then a different bus to the DPS station. Well, in 
Houston, the DPS location where you get your driver's license 
is not in the urban core. And for several people, it was three 
different bus routes and transfers, an all day process.
    And sure enough, you'd get to DPS, you wait in line your 
hour and a half, and you're missing one thing that wasn't on 
the Web site. So there's a whole lot of hassle both financial, 
time, money, lost time with family that--that these kind of 
laws and that's what they're designed to do, make it hard so 
the people won't do it.
    Mr. Green. Thank you, Madam Chairwoman.
    Mr. Vela, thank you again for helping us to have this 
historic occasion:
    Chairwoman Fudge. Thank you.
    As I wrap up, let me just say a few things. One, of course, 
is your testimony has been enlightening, it has been at times 
disturbing, and at times just egregious. It is something that I 
think every single citizen of this country needs to hear.
    I represent one of the poorest districts in America with a 
fairly large minority population. And what I know is that most 
people who are poor or who are of color, the only protection we 
have is the law. It is the courts. And so if you had an 
opportunity to say today to the Supreme Court why we need to 
reinstate fully the Voting Rights Act, each one of you just 
please tell me what that is.
    And we'll start with you, Mr. Rios.
    Mr. Rios. I think as the minority community becomes more 
politically active, the power structure will make it more 
difficult for them to participate in the political process and 
continually violate the Constitution.
    Chairwoman Fudge. So you're basically saying if we allow 
people to their own devices, they will do things that are not 
right. Okay.
    Mr. Korbel.
    Mr. Korbel. Well, Congresswoman, I think it's really this 
chart showing how small the Anglo population is getting and how 
big the minority population is getting.
    The--the other side is simply afraid that they're going to 
lose control of the state. This is very disturbing to them.
    Chairwoman Fudge. And we'd like to also have a copy of your 
map in addition to that, because that is happening literally 
all over the United States.
    Mr. McCarthy.
    Mr. McCarthy. Yes. I said before that voting is the 
cornerstone on which all of our other civil liberties rest. And 
what we've heard today is ample evidence that--that people's 
right to vote is being curtailed in this state. People are 
having their votes suppressed. And so something really needs to 
be done to stop that.
    Mr. Dunn. Chief Justice Roberts said in the Shelby County 
opinion that nobody denies that there's racial discrimination 
in voting, and one circumstance is too many. But times have 
changed. And we certainly can't deny that. Times have changed 
for the better, sometimes for the worst.
    What I would say to the U.S. Supreme Court is in all due 
respect, open your eyes and look at least what has happened 
since you made that choice. I believe these are people of 
integrity. And perhaps they live in different communities than 
I do and have different experiences, but open your eyes, 
because you have unleashed something that is hard to put back 
in the bottle.
    Chairwoman Fudge. I thank you all so very much for your 
testimony. I thank my colleagues for their participation.
    We do have another panel, and I think we are right on time, 
so thank you very, very much.
    Mr. Rios. Thank you, Congresswoman. (Brief recess)
    Chairwoman Fudge. I'm happy to, at this point, introduce 
Mimi Marziani, who is the chair of the Texas Advisory Committee 
to the U.S. Commission on Civil Rights.
    Mimi, the floor is yours.
    Ms. Mimi Marziani. Wonderful. Can you hear me okay? Okay. 
There we go. Wonderful.
    Well, good morning, everybody. It is a great honor to be 
here, so thank you for having me. My name is Mimi Marziani. As 
mentioned, I am the Chairwoman of the Texas Advisory Committee 
to the U.S. Commission on Civil Rights. In addition, I'm the 
President of the Texas Civil Rights Project. And on top of 
that, I'm an attorney. I am a professor of election law and 
voting rights. I'm a community leader. And maybe most 
importantly, I'm a mom of two young daughters. I believe deeply 
that Texas can be better than what it is, and I care about the 
future of this state.
    I have two goals this morning for you. First, I want to 
highlight the significant ways in which continued 
discrimination against voters of color in Texas is undermining 
the promise imbedded in our Constitution of equality and human 
dignity.
    My second goal in doing that is to give voice to some of 
the voters in Texas who have been affected and describe for 
each of you what that's really felt like for them and what 
that's looked like on the ground. I'm going to attempt to be 
concise, and--but, of course, I am happy to answer any 
questions you have.
    So first, discrimination in voter registration is 
persistent. And, in fact, and sadly, it appears to be getting 
worse. We've heard quite a bit this morning about the unlawful 
purge of new citizens from the rolls, so I won't spend any more 
time on that except for--except to share two points with you. 
This morning, the Texas Civil Rights Project joined with the 
Texas ACLU and other organizations filed suit against the State 
of Texas and several counties over this unlawful purge. We have 
a 50-page complaint that outlines a number of ways in which the 
state has violated the Constitution. Happy to answer questions 
about that litigation.
    The other point I wanted to make about the purge is maybe 
even more important. Last night, I had the pleasure of speaking 
with a woman named Sylvia. She's a naturalized citizen here in 
Texas, and she was interested in joining our lawsuit. She 
declined to do so, however. And the reason she declined is 
because she's scared. She's terrified in this sort of 
environment in this state that by speaking out, putting herself 
on the line that she could face retaliation from the 
government. And--and I share that to describe the type of 
environment in which voters are operating.
    So a couple other examples of discrimination in voter 
registration. Since at least 2011, Texas has worked to 
eliminate grass roots voter registration drives. I heard a 
number of you talk about voting rights in the `60s and `70s and 
`80s, and so you know that voter registration drives have been 
a really incredibly important way to bring new people into the 
electorate, particularly young people and persons of color.
    Sadly, in Texas, it's a crime to register your neighbor to 
vote unless you've jumped through a lot of hoops and have 
gotten deputized by the state. The very predictable result of 
this regime has been the elimination of this sort of grass 
roots effort. And, unfortunately, that has led to ridiculous 
situations, such as, for example, in 2016 in the City of San 
Antonio, a city with a population of more than 1.5 million, 
there were under 1,000 people eligible to register somebody 
else to vote.
    The third failing of voter registration that I wanted to 
highlight was the Secretary of State's persistent failure to 
enforce a state law requiring that high schools register to 
vote young people. And this has been something the state has 
refused to enforce in recent years despite public outcry, 
despite the fact that 72 percent of our high school students in 
Texas are persons of color themselves, and despite the fact 
that the state's inaction is causing literally hundreds of 
thousands of young people every year to go unregistered and, 
therefore, not be able to participate in our democracy.
    Finally, I wanted to highlight that Texas has been 
refusing, in addition, to comply with federal voter 
registration law, namely the Motor Voter Act. By not complying 
with the National Voter Registration Act when people go online 
to update their driver's license, 1.5 million Texas--Texans 
annually are missing an opportunity to register to vote. This, 
quite frankly, hits the entire population, but it hits frequent 
movers even harder, because it means that as they move, they 
are no longer registered at their current address. Frequent 
movers tend to be poorer and younger, and, therefore, in Texas, 
they are much more likely to be people of color.
    The culmination of all of this discrimination in voter 
registration has had significant consequences. First, we know 
that there are millions of people in Texas who are eligible to 
be registered to vote, but they are not, meaning that they just 
cannot participate. They are just shut out of the process. In 
addition, the people who are on the rolls don't represent us. 
The people on the rolls in Texas are older and whiter than the 
citizen voting age population as a whole, and so it has skewed 
the entire political process.
    I see I'm out of time.
    Chairwoman Fudge. Just wrap up.
    Ms. Marziani. Okay. So one note on the Motor Voter piece. I 
did want to share the story of a woman named Tatsia Watkins. 
She's a black mother of two from Irving, Texas, in the Dallas 
area, and she worked very hard to move herself to a new 
neighborhood with better schools. She dutifully went online to 
try to update her driver's license and register herself to 
vote. When she showed up at the polls in 2014 to try to cast 
her first ever vote in a midterm election, she wasn't able to 
cast a ballot that counts. And this happened in front of her 
daughters. And she honestly cannot talk about it without 
tearing up.
    So again, that is what this sort of discrimination looks 
like on the ground. And as some of the other panelists 
mentioned, when that sort of thing happens to a person, they 
are much less likely to go and try to vote again.
    In my written testimony, I also talk about a medley of 
problems that happen once folks actually show up at the 
polling--at the polling place and try to vote, including long 
lines, changed polling places, mismanagement, and good old-
fashioned voter intimidation. I'm happy to talk about that 
further during the question period, but I'll stop my opening.
    Chairwoman Fudge. Thank you very, very much.
    We've been joined by our colleague Mr. Veasey. Thank you so 
much. We are glad that you made it, Marc.
    Mr. Veasey. Thank you.
    Chairwoman Fudge. Why don't we begin the questioning as 
we've gone the same way that we went before. We will start with 
Mr. Thompson.
    Mr. Thompson. Thank you very much.
    One of the challenges we've had with the Motor Voter Act is 
there's no requirement that if I'm registered at a state 
agency, there's no timeline for me to transfer that data to a 
local registrar. And so that has compounded the problem, 
because some people went to get driver's license, registered to 
vote, but that information didn't get transferred to the local 
registrar.
    And so when they go vote they're told, ``You're not 
registered.'' So that's one of the things that we're trying to 
look at also to see should we put a time limit on the agency to 
transfer that registration data.
    Have you run into that?
    Ms. Marziani. So, in fact, there is a time limit in the 
existing National Voter Registration Act. That already exists. 
Unfortunately, what you're highlighting is that there is 
rampant noncompliance. And one thing that has been really 
unfortunate in recent years is the Department of Justice has 
completely stopped enforcing the National Voter Registration 
Act, and then you see a lot of states that are not in 
compliance.
    Mr. Thompson. Well, when we approached my state, 
Mississippi, they talked about the capacity issue and the 
ability to do it, but I'm happy to know that.
    The other part of that question is have you found a--that 
when officials are trained to conduct elections, most states 
don't have standards? You know, if you're somebody's friend, 
they pick you to work the election. How is it in Texas, to your 
knowledge?
    Ms. Marziani. Yes. So in Texas, poll workers are usually 
appointed by the local political party. And to your point, 
there are very few standards on who is able to be a poll 
worker. They're paid very little. The training is haphazard. 
And the result of that is pretty gross mismanagement of the 
polling locations. And I've included this in my testimony.
    But one very blatant example, during the 2018 election, so 
just a couple of months ago, in Harris County, home to Houston, 
there were at least nine polling locations that opened more 
than an hour late, all of them located in communities of color. 
And when we called the local county clerk and said, you know, 
action needs to be taken, we were told that, ``No, no. We 
shouldn't worry about it. These sort of problems are typical 
for election day,'' even though countless folks were just--you 
know, they--they couldn't stand in line for hours and hours.
    And ultimately, we sued representing a community organizing 
group here in Texas, and we were able to get the polls opened 
for another hour. But that's one example of the--and, you know, 
people slept in. They didn't know how to turn on the machines. 
They were really basic things, but it--it comes from having 
folks who are--who are not professionals, who are not properly 
being trained, they're not properly being supervised, they're 
not properly being paid.
    Mr. Thompson. So you would recommend some standardization 
of a training regimen for election workers?
    Ms. Marziani. Absolutely. And not just me. In 2012, you 
might recall President Obama saying that we need to do 
something about long lines. And there was a bipartisan 
commission that he convened, and they issued a report. And one 
of the things in that report, as, you know, unsexy as it 
sounds, was exactly around poll workers and looking at how many 
problems are caused at the polls by the lack of professional 
poll workers. And then there's a whole list of things in that 
report that we could do.
    Mr. Thompson. Thank you. I yield back.
    Chairwoman Fudge. Ms. Johnson.
    Ms. Johnson. Have you had an opportunity to look at the 
different applications for driver's license in any one state--
any more--more than one state?
    Ms. Marziani. Yes.
    Ms. Johnson. Like Texas versus any other state?
    Ms. Marziani. With regards to the Motor Voter Law you mean?
    Ms. Johnson. Yes. Because the voter--the driver's license 
now in Texas focus more on voting rights than they do on 
driving. And I just wondered if we could compare that to any 
other state.
    Ms. Marziani. Well, so one thing I will say in Texas that 
the Department of Public Safety, which is in charge of driver's 
license, they have been extraordinarily hostile to the notion 
that they need to comply with the Motor Voter Law or that they 
need to issue voter IDs to people. And so I'm not sure how that 
compares to other states, but that has been a significant 
problem.
    With regards to what I spoke about the failure to offer 
voter registration when folks go online and update their 
driver's license, as 1.5 million Texans do every single year, 
that problem, you do see it in some other states, but it is 
much less of an impact in other states because many other 
states have online voter registration.
    In Texas, we have taken no steps to modernize voter 
registration, so you don't have any online voter registration. 
And in addition, when people go online to update their driver's 
license, they're not getting the benefit of the rights under 
the National Voter Registration Act. So there's this--this 
double whammy.
    Ms. Johnson. Thank you very much.
    Chairwoman Fudge. Mr. Lujan.
    Mr. Lujan. Thank you so much for being with us today.
    I was intrigued by the aspects of your testimony regarding 
young voters in the State of Texas. Can you expand on that and 
again remind us of the percentage of people of color currently 
in high school. I think you said 72 percent, but exactly what 
this means in making it harder for young people to get 
registered or--to participate in voting in the state of Texas.
    Ms. Marziani. Absolutely. So as I mentioned in my 
testimony, I think there's a really important background fact 
for the panel to consider is that race, age, and class closely 
correspond here in Texas. And so one statistic, when you look 
at Texans under 40, it's almost 60 percent black or Latinates 
and 35 percent Anglo.
    When you go over 40, that flips. You--you're about 56 
percent Anglo, 38 percent black or Latinates. And so by 
definition, when you're talking about young people in Texas, 
you're talking about a population that is majority minority; 
Similarly, as we saw in the voter ID litigation, poorer folks 
in Texas are more likely to be people of color. So all these 
things correspond very closely.
    When you get even younger, so under 20, the statistics are 
even more pronounced. And as I mentioned before, 72 percent of 
high school students in Texas are persons of color. And--and 
that's one of the many reasons that we are so concerned by the 
state's persistent failure to enforce our very own Texas law 
requiring that Texas high schools offer voter registration 
twice a year.
    Mr. Lujan. I appreciate that. Thank you very much.
    Madam Chairwoman, I yield back.
    Chairwoman Fudge. Mr. Vela.
    Mr. Vela. Mr. Veasey, I'm no longer the junior member in 
this delegation.
    Mr. Veasey, Mr. Joaquin Castro, and Beto O'Rourke, and I 
were all elected at the same time. And Mr. Veasey was one of 
the first people out front on the issue of voting rights.
    And given our--our time constraints, what I'd like to do is 
go ahead and yield my five minutes to--to Mr. Veasey so he can 
take his full ten.
    Chairwoman Fudge. Mr. Veasey, you're recognized.
    Mr. Veasey. Fil, thank you very much.
    Madam Chairwoman, thank you.
    This is really appropriate that we're holding this hearing 
in Texas. As you know, from the time of reconstruction until 
the Voting Rights Act was passed, Texas had as oppressive 
voting laws as any state in the union, including the--the three 
deep southern states that are--that are often mentioned when it 
comes to voter suppression.
    But something happened after the Voting Rights Aqt passed 
to where Texas became one of the leaders in the expansion of 
voter rights. I mean, you look at, for instance, straight-
ticket voting, being able to vote anywhere in your county 
during the early voting period, just making it so easy for 
voters to be able to--to cast their ballot.
    And then, of course, over the last decade or so, we've 
regressed. We have now become one of the very worst states, 
including this voter ID bill that has been talked about, and 
then a lot of other things that have happened that people are--
aren't quite sure about yet, especially outside of the state.
    One is that we ended straight-ticket voting. And the 
amazing thing about us ending straight-ticket voting is that 
when I was in the State legislature, the Republican and 
Democratic activists and organizations, they came to testify 
before Austin begging us to not end straight-ticket voting. 
And, of course, the Lieutenant Governor's son lost an election 
in Harris County in Houston, and they get rid of straight-
ticket voting, which was so easy and convenient for--for so 
many people. And, of course, a lot of people think that that's 
meant to hurt people in the African-American community.
    We also had a--things that people--again, because luckily 
they didn't become law, but in the House, when I was in the 
House, actually passed a piece of legislation that said that 
you could only register to vote if you had a passport or a 
birth certificate. I don't know how many voter registration 
drives would be successful if you had to have one of those two 
on you. I doubt very many people have their passport or birth 
certificate on them in this room right now.
    And my question specifically to you is what steps do you 
think, or what areas do you see Democrats and Republicans in 
the Texas Legislature being able to work together to maybe 
perhaps, do some good common sense legislation that would 
actually increase confidence that people, especially elected 
officials in the state, care about people being able to cast 
their ballot and the right to vote?
    Ms. Marziani. Absolutely. It's a fantastic question. Two 
things I would point to that I think are very much common sense 
reforms. One is allowing online voter registration. There is--
there's scores of evidence from across the country. Right now, 
more than--I think it's 42 other states have online voter 
registration. It saves money. It makes the polls more accurate. 
It transfers power to the voter themselves, because they can 
check the accuracy of their records and update them. And it 
increases security. So--that is one thing that, you know, you 
look at other states, it's very much been a bipartisan effort.
    I think a second thing that I--I would really hope we could 
find bipartisan agreement would be around professionalizing the 
polling place. And so I do think that includes poll worker 
training, but it also includes updating our voting technology. 
The--most of the voting machines here in Texas are--were 
purchased in 2002. I will admit in 2002, I was not a lawyer. I 
didn't--you know, none of us had iPhones. You know, just think 
about what you were doing in 2002 and how far back we were. And 
so no surprise they're on their last legs.
    And that's why our voting machines are doing things like 
flipping people's votes entirely. And that was confirmed in the 
2018 election that people pulling straight-ticket Democrat, it 
was flipping to straight-ticket Republican and vice versa.
    So those are two places where I would really hope we could 
see some bipartisan agreement.
    Mr. Veasey. Speaking of professionalizing the polling 
place, could you explain to everybody here why it would be a 
bad idea to allow people to remain anonymous when they report 
as poll workers.
    We had an organization several years ago known as the King 
Street Patriots, this right-wing conservative organization that 
was trying to get a bill passed that said that poll--that 
people that are coming to observe, the poll watchers, need not 
show any identification or fill out any forms, that they should 
just be able to show up and anonymously be poll watchers. Can 
you explain to everybody why that's a bad idea?
    Ms. Marziani. Yes. I will give two examples, in fact. One 
involves a member of the King Street Patriots, Alan Vera, who 
in 2018--August 2018, so just a couple of months ago, actually 
submitted to the Harris County voter registrar's office 4,000 
challenges of registered voters in Houston. And he based it not 
on personal knowledge, as the law required, but on his own 
assumptions built into the addresses people had provided.
    And we are still actually examining all of those addresses 
for patterns, but I can tell you a lot of them come from 
communities of color, and a lot of them are folks who are very, 
very poor who are living in churches, homeless shelters, places 
like that. And they had submitted those addresses, as you are 
allowed to.
    And one of the reasons that he did this blanket challenge 
is because he didn't actually have to stand up and say that he 
had personal knowledge for every single one. And so I think 
that is the type of thing you could expect if you allow things 
to be anonymous.
    Secondly, you know, I think that it is just contrary to 
notions of justice and--and due process, and, quite frankly, 
the type of political dialogue that we should have. There's a 
great case from a couple of years ago where people were trying 
to shield their identity when they were signing controversial 
ballot initiatives. And Justice Scalia actually said that 
hiding your identity in these type of situations hardly 
resembles the land of the brave.
    And--I think that that's the other piece of it, that it's 
not fair, and it can't actually promote the type of political 
dialogue that all of us would want.
    Chairwoman Fudge. Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much.
    And welcome, Mr. Veasey. We thank you for your leadership 
on the voter ID legislation that obviously is one of the 
centerpieces of dealing with voter equality, which I'd like to 
call. Let me thank you very much for your leadership.
    And I might refer to some points that you made in your 
testimony. I'd just like to refer to them again that your 
testimony here today is to highlight the continued 
discrimination in Texas against voters of color, which you 
believe undermines equality and human dignity. So I ask you the 
question do you believe that Texas is one of the major 
epicenters of voter suppression?
    Ms. Marziani. Not only do I believe that, it is the number 
one reason that I transferred my legal career from New York to 
Texas.
    Ms. Jackson Lee. Thank you.
    And do you believe that part of that suppression or all of 
it or much of it is state action driven?
    Ms. Marziani. Yes.
    Ms. Jackson Lee. And your other point made here--and I'm 
going to follow a line of questioning--is you talk about the 
fact that race, age, and socioeconomic status are closely 
correlated in Texas. And here's your exact language.
    African-Americans and Hispanics are more likely than Anglos 
to be living in poverty because they continue to bear the 
socioeconomic effects caused by decades of racial 
discrimination. Do you agree with that?
    Ms. Marziani. That's actually the court's language in 
Veasey v. Perry. So, yes, absolutely.
    Ms. Jackson Lee. And with that in mind, they bear the 
brunt--and I think it's important to note Hispanics and 
African-Americans as a group, and, therefore, it is important 
for that coalition around these issues to be strong. But you 
believe that that is ongoing at this point?
    Ms. Marziani. Absolutely. And I would add there's also 
pretty rampant discrimination against the Asian-American 
community as well.
    Ms. Jackson Lee. So let me raise these questions. One, you 
gave some history, but I remember in the voter ID law that we 
were experiencing the panic in rural areas of DPS offices 
closing up or not being available. Number one, if you will 
comment on that.
    In the recent 2018 election, you may realize in the early 
vote, which we pride in Texas, Hispanics and African-Americans 
in particular have jobs that really don't release them or they 
don't get off until 5:00, 6:00, or so. And their normal 
thinking about elections are the polls are open until 7:00. Our 
local officials closed the polls at 4:00 p.m. You might comment 
on how horrific that is in terms of people's mindset.
    Also, the issue of humiliation, I've experienced that. And 
I think you had in your testimony the question of a Latino 
person who was told to get after they confiscated her passport, 
which in the context of ID, it was a legitimate form of ID. 
Just if you can just answer those three, and I have a follow-up 
question.
    Ms. Marziani. Absolutely. First, yes, DPS offices are often 
located at very great distances for citizens, which makes it 
extraordinarily hard for them to get the ID that they need. 
So--so you're absolutely correct.
    Early voting is a very important way for people to have the 
flexibility to be able to get to the polls, especially if they 
have young children, if they work job that are inflexible, for 
all sorts of other reasons, I'll note that we were very 
concerned in 2018, even though there was advanced warning that 
this was going to be a high turnout election in Texas, and it 
was, that because of the mismanagement of polling places; we 
saw long lines even during early voting. I have this in my 
testimony, you know, people waiting an hour in San Antonio, an 
hour in Burnet, an hour in La Porte; two hours in Austin, two 
and a half hours in Houston, three hours in Corpus Christi. And 
so that still--those are significant problems during early 
voting.
    Finally, on pages 6 and 7 of my testimony, I include some 
pretty horrific stories that voters experienced when they were 
seeking to vote, many of them at the hands of election workers. 
One I'll highlight. A brown-skinned voter in Kingwood gave her 
driver's license to a poll worker who asked her how long she 
had been in the U.S. She responded that she was a naturalized 
citizen from Canada. The poll worker said, ``Welcome to 
America.''
    He then asked the same question of the voter's mom but then 
did not ask that question of any of the light-skinned people 
standing in line.
    Ms. Jackson Lee. Let me conclude, Madam Chairwoman, if 
you'll let me get this last question in. This is an editorial 
by The Houston Chronicle that indicates the governor owes an 
apology for his ham-fisted try at voter suppression.
    It reads ``The Secretary of State should probably resign 
after issuing an advisory on January 25th flagging 95,000 of 
the state's registered voters as potential noncitizens. At 
least 58,000 of those people have voted at least once since 
1996 he said.''
    But my question is given--tying this in, and given the fact 
that only 68 percent of Texans are registered to vote because 
of suppression and intimidation, given the Shelby decision, 
your experience, what type of record do we need to continue to 
build to ensure that the Supreme Court, no matter its 
configuration, more Republican appointees, realizes that 
Section 5 needs to be reinstituted?
    Ms. Marziani. Well, I--I think it's an excellent question. 
I--I worked in the testimony to try to provide as many 
contemporaneous examples as possible.
    I will say that in addition to what's in the testimony that 
resubmitted around voter registration and polling access, the 
report that the Texas State Advisory Committee issued and 
presented to the U.S. Commission on Civil Rights last year, our 
report also has, I think, ten pages of findings. And that was a 
bipartisan group that concluded at the end of the day that, you 
know, Texas--to put it simply, that Texas is not a red state or 
a blue state. Texas is a nonvoting state. And the reason we're 
a nonvoting state is because of these systemic barriers that 
have been put in front of the voters.
    Ms. Jackson Lee. Thank you,
    Chairwoman Fudge. Thank you.
    Mr. Green.
    Mr. Green. Thank you, Madam Chairwoman.
    And I thank the witness for appearing. Your testimony has 
been invaluable.
    I'm a son of the segregated South. I know what it's like to 
be suspect because of your appearance. I know what invidious 
discrimination looks like. I've seen the Klan with the robe in 
my community. I know what it smells like. I was forced to go to 
filthy colored waiting rooms at restaurants and various other 
places. And I know what it sounds like. I've been called ugly 
names. So I understand what being a suspect just by virtue of 
who you are is like.
    And what I see happening to the Latino cornmunity is very 
painful, because the Latino community now is being suspect. 
What's happening at the southern border, asylees being called 
terrorists. The whole notion that Latinos somehow are illegal 
by virtue of the titles that are being accorded them by public 
officials. When you call people illegal, you then say something 
can happen to them because of their status. The notion that you 
can purge the rolls by coordinating your effort with the 
Department of Public Safety.
    And if a person happened to have registered to acquire a 
license as a potential citizen, not a citizen at the time, 
permanent resident, there's no law that requires you to later 
on go back and acknowledge that you're now a citizen, so you 
become suspect by simply having acquired a driver's license as 
a permanent resident.
    This type of behavior from public officials--we're not 
talking about just lay people, but from public officials has to 
have an impact on the way people participate in a participatory 
democracy. And that's what we have.
    So the question for you is given all of these things that 
are being used as tools against the Latino community, does--
does this in and of itself create a form of suppression in 
terms of a willingness to register, a willingness to go to the 
polls and vote? Does this behavior from public officials have 
an invidious--insidious, if you will, impact upon Latino 
voters?
    Ms. Marziani. Absolutely. Two comments. One, thank you for 
sharing that. I'm also a child of the South, and that's why I 
know that racial discrimination is alive and well.
    Secondly, yes, you're absolutely right. And--and I'm 
actually going to point to something that is--might be--might 
seem on its face to be outside of the voting rights sphere, but 
the SB4 law that was passed by the legislature in 2017. Now, as 
I see a lot of nods. SB4 is a sanctuary city and show me your 
papers bill. And that is indeed what it does.
    But in addition, SB4 seeks to sow fear in Latino 
communities.And in that litigation, the Texas Civil Rights 
Project represents a number of community organizing groups. And 
what they shared with us is that because of SB4, they had 
members who suddenly were afraid to go into the public sphere 
and speak out. They were afraid to go to rallies. They're 
afraid to register other people to vote.
    And so, yes, I agree with you absolutely. And I think that 
it's not just the photo ID bill or these unlawful purges. It's 
also things like SB4 that are contributing to this environment 
of fear and suppression that is just poisonous for our 
democracy.
    Mr. Green. Final point, and I have very little time, but 
the tone and tenor of the political debate often emanates from 
the top. The President has said some ugly things. How has that 
tone and tenor trickled down to the people who have the right 
to exercise the vote?
    Ms. Marziani. Well, one thing we can look at is the rampant 
misinformation. For instance, the claim that voter fraud is 
some sort of systemic problem, which we've discussed has no 
factual basis.
    I'll point to a very recent example. We've noted that the 
Texas Secretary of State in sending out this advisory that 
95,000 people are suspect, to use your word, although that was 
not rooted in sound data, well, almost immediately after that 
went out 11 days ago on January 25th, the President of the 
United States tweeted that there were 60,000 people who had 
voted illegally in Texas. It is just without factual basis.
    But I find it hard to believe that that couldn't--you know, 
I mean, people--people trust their elected officials. And so 
surely that has led many people to believe that there is, in 
fact, these--these rampant problems, when, in fact, there's no 
basis at all.
    Mr. Green. Thank you, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Ms. Jackson Lee. Madam Chairwoman, can I put something in 
the record?
    Chairwoman Fudge. Yes.
    Ms. Jackson Lee. And I won't ask her for an answer to it, 
but I just want to put it on the record.
    The witness, Ms. Marziani, indicated Asian voters, and that 
speaks clearly as much as Hispanics to the--the language 
question. And more of it has come because of lack of Section 5.
    But I want to add to the record that Texas changed its 
voting process that had been in use for decades straight 
ticket. And, of course, people will view that as partisan or 
political, but it was used by Republicans and Democrats. And it 
was put in--when I say ``straight ticket,'' the elimination of 
straight-ticket voting, it's used by Republicans and Democrats. 
But more importantly, it is a tool that sometimes illiterate 
voters are able to use or--or disabled voters are able to use.
    And so we had no Section 5 preclearance on the elimination 
of the straight ticket, which I believe will disenfranchise 
maybe hundreds of thousands and maybe a million voters plus 
because it impacts individuals who may be illiterate, who have 
a language issue, and as well may be disabled. And I just 
wanted to put that on the record.
    Chairwoman Fudge. Thank you.
    Ms. Jackson Lee. Thank you.
    Chairwoman Fudge. As we prepare to close, I have one 
question, and then I'll wrap up. Is there something that you--
or--or could you briefly just tell us what your protection 
program really is and how it functions.
    Ms. Marziani. Yes. So the Texas Civil Rights Project is 
really proud to spearhead a statewide nonpartisan election 
protection effort, and we've been doing so since 2016. That 
entails dozens of organizations, most of us here in Texas, but 
also with some help from some national counterparts.
    And we put volunteers outside of polling locations to 
answer questions and collect problems. We run a hotline 
available in a number of different languages for voters to call 
us and ask questions and report proplems. And then we train and 
deploy a group of attorneys who are ready to do things like--
like sue a county, the example I gave, to keep polls open later 
on election day.
    I have a number of examples in my testimony of some of the 
calls we received, what voters told us. We received over 4,200 
calls in 2018. And we forthcoming have a report that will 
document in greater detail what we heard from the voters in 
2018. We--we compiled a similar report after the 2016 election 
that is linked in my testimony.
    Chairwoman Fudge. Thank you very much. That is great work.
    As we close, let me just say a couple of things. One is, as 
you talked about, young people. In my district, we have a 
morning where students come to vote in early vote. I meet those 
buses. I ask them how they feel when they go in, and I ask them 
how they feel when they come out. There's a great sense of 
pride when young people go and vote. And so I am hopeful that 
we will continue to deal with that situation.
    Lastly, I would say to those who are listening as well as 
to those who would continue to try to stop us from voting that 
this is still the land of the free and the home of the brave. 
We're still the country that decides what democracies we 
recognize. We're still the country that wants to spread 
democracy all over the world.
    So I would say to Chief Justice Roberts, give us the 
ballot, because it is a shame that the country that calls 
itself the light on the hill would treat its own citizens this 
way,
    I would close and say thank you all so very much. Without 
objection, this session of the Committee on House 
Administration is adjourned.
    (Listening session concluded.)

                        A P P E N D I X

                                                                   Page
Rolando Rios, Esq., statement....................................    40
George Korbel, Esq., statement...................................    64
Mimi Marziani, Texas Civil Rights Project, statement.............   101
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                            [all]
</pre></body></html>
